Audit of Funding for Major Research
      Equipment and Facilities




     National Science Foundation
      Office of Inspector General
              May 1, 2002
              OIG 02-2007
                Audit of Funding for Major Research Equipment and Facilities



                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ..................................................................................................1
INTRODUCTION ..............................................................................................................3
     Background.................................................................................................................3
     Objective, Scope & Methodology.................................................................................4
RESULTS OF AUDIT........................................................................................................6
     NSF’s Efforts to Improve the Financial Management and Oversight of Facilities
     Projects .......................................................................................................................6
     Funding and Tracking of Major Research Equipment and Facilities Costs ..................7
     Effects of Not Accounting for Total Costs of Major Research Equipment and
     Facilities ....................................................................................................................10
     MRE Appropriation Account Funds Both Critical Assets and Research Tools ...........11
     Financial Management Policies and Procedures Need To Improved .........................11
CONCLUSION & RECOMMENDATIONS .......................................................................13
AGENCY RESPONSE ....................................................................................................14
APPENDICES
ACCOUNTING STANDARDS AND MANAGEMENT GUIDELINES ................................15
INTERIM AGENCY RESPONSE.....................................................................................16
           Audit of Funding for Major Research Equipment and Facilities

                                 EXECUTIVE SUMMARY


Purpose

The audit objective was to determine if the National Science Foundation (NSF) is solely
using its Major Research Equipment (MRE) appropriation account to fund the
construction and acquisition costs for major research equipment and facilities and to
determine if NSF has established adequate management controls to ensure that these
expenditures are derived solely from MRE appropriations.

Background

NSF established the MRE account in fiscal year (FY) 1995 to provide funding for the
construction of major research equipment and facilities that provide unique capabilities
at the cutting edge of science and engineering. Through FY 2001, NSF has provided
over $600 million of funding from the MRE account for major research equipment and
facilities. In December 2000, the NSF Office of Inspector General (OIG) reported that
the Gemini Project had exhausted its $184 million of MRE funding for construction and
commissioning and had used or was planning to use operating funds from the Research
and Related Activities (RRA) appropriations account to cover at least $52.8 million in
excess construction and commissioning costs.1 Subsequently, the former Chairman of
the Subcommittee on VA, HUD and Independent Agencies of the Senate Appropriations
Committee, in a letter dated May 22, 2001, requested that the NSF OIG perform further
work to determine if other major research equipment and facilities projects have financial
management issues similar to those found with the Gemini Project.

Results in Brief

Although the NSF has made a concerted effort to improve its management and oversight
of projects receiving funding from the MRE appropriation account, NSF can improve its
financial management of these projects. NSF’s policies and practices do not yet provide
adequate guidance for program managers to oversee and manage the financial aspects
of major research equipment and facilities. These policies have allowed NSF to use
multiple appropriation accounts to fund the acquisition and construction costs of major
research equipment and facilities, and led to inconsistencies in the types of costs funded
through the MRE account. Additionally, NSF’s current practice is to track only those
costs funded from the MRE account and not the full cost of the major research
equipment and facilities. As a result, NSF cannot ensure that it stays within its
authorized funding limits or that it provides accurate and complete information on the
total costs of major research equipment and facilities to decision-makers for use in
evaluating performance.



1
  OIG Report No. 01-2001, Audit of the Financial Management of the Gemini Project, December
15, 2000. In its response to the report, NSF management disagreed with this conclusion. NSF
contends that the excess costs were operational costs and therefore, were properly funded
through the RRA rather than the MRE appropriation account.

                                             1
Recommendations

We recommend that NSF improve its financial management and accounting policies and
procedures to ensure that it manages and oversees the full cost of major research
equipment and facilities. These improvements must ensure that NSF tracks the total
costs of the major research equipment and facilities in accordance with Federal
accounting and management guidance, develops the appropriate financial management
practices to oversee its major research equipment and facilities, specifies how cost
overruns are to be handled, and uses appropriation accounts in accordance with their
stated purpose. In addition, NSF needs to provide training on the updated policies and
procedures to all NSF personnel involved with the funding and accounting for major
research equipment and facilities.

Agency Response

To date, NSF has not formally responded to our draft report. We provided the agency
with an initial discussion draft, and corresponded and met with representatives from the
Office of Budget, Finance, and Award Management. Based upon those discussions, we
made several changes to our draft report. In an interim letter, NSF advised us that they
would respond officially to our report by June 15, 2002. We have included that letter, in
full, as Appendix B.




                                            2
            Audit of Funding for Major Research Equipment and Facilities


                                      INTRODUCTION


Background

The National Science Foundation (NSF) established the Major Research Equipment
(MRE) appropriations account for fiscal year (FY) 1995 to provide funding for the
construction of major research equipment and facilities that provide unique capabilities
at the cutting edge of science and engineering.2 Projects supported by this account are
expected to push the boundaries of technological design and offer significant expansion
of opportunities, frequently in totally new directions, for the science and engineering
community.

The account is NSF’s primary vehicle for funding major, multi-million dollar scientific and
engineering research equipment and facilities that often cost tens or even hundreds of
million dollars. NSF established this budget account to promote effective planning and
management for the support of such sizable investments made over a limited period of
time. Specifically, the MRE account was intended to:
     • Provide funding for construction and acquisition of major research equipment and
        facilities;
     • Avoid distortions in the budgets of directorates/offices that result when funding
        for large projects is included;
     • Ensure that resources are available to complete projects that are funded over
        several years; and
     • Distinguish the slow outlays for construction projects.

To be funded from the MRE account, a project must meet several eligibility requirements
and go through a review and approval process. The NSF program sponsoring the
project must develop a project paper, including a cost profile, schedule, and a project
management synopsis. This project proposal package is then reviewed and approved
sequentially by a panel of senior NSF management, then by NSF’s Director, and finally
by the National Science Board (NSB).

Through FY 2001, NSF has provided over $600 million of funding from the MRE account
for the following major research equipment and facilities:
     • Gemini Observatory;
     • Laser Interferometer Gravitational Wave Observatory;
     • South Pole Safety Project;
     • Atacama Large Millimeter Array (formerly known as Millimeter Array);

2
 Congress has since changed the name of NSF’s Major Research Equipment appropriation
account to Major Research Equipment and Facilities Construction, to better reflect the purpose,
activities, and costs to be funded from this account. Making appropriations for the Departments
of Veterans Affairs and Housing and Urban Development, and for sundry independent agencies,
boards, commissions, corporations, and offices for the fiscal year ending September 30, 2002,
and for other purposes, Pub. L. No. 107-73 (2001).


                                               3
    •   Large Hadron Collider;
    •   Polar Support Aircraft Upgrades;
    •   South Pole Station Modernization;
    •   George E. Brown, Jr., Network for Earthquake Engineering Simulation;
    •   Terascale Computing Systems; and
    •   High Performance Instrumented Airborne Platform for Environmental Research.

In December 2000, the NSF Office of Inspector General (OIG) reported on the financial
management of the Gemini Observatory Project (Gemini Report), which was one of the
two original major research equipment and facility projects.3 According to the audit
report, the Gemini Project had exhausted its $184 million of MRE funding for
construction and commissioning and had used or was planning to use operating funds
from the Research and Related Activities (RRA) appropriations account to cover at least
$52.8 million in excess construction and commissioning costs.4

In light of the Gemini Report, Senator Christopher Bond, the former Chairman of the
Subcommittee on VA, HUD and Independent Agencies of the Senate Appropriations
Committee, in a letter dated May 22, 2001, stated his concerns about the use of RRA
funds to supplement the costs of major research equipment and facilities, and requested
that the NSF OIG perform further work to determine if other major research equipment
and facilities projects have financial management issues similar to those found with the
Gemini Project.

Objectives, Scope & Methodology

The audit objectives were to determine if NSF is solely using its MRE appropriation to
fund construction and acquisition costs for major research equipment and facilities and
to determine if NSF has established adequate management controls to ensure that
these expenditures are derived solely from MRE appropriations.

The scope of our audit included the ten projects receiving MRE funding during the period
from FY 1995 through FY 2001; however, we performed limited work on the Gemini
Observatory, which we had previously audited, and the Laser Interferometer
Gravitational Wave Observatory, which is currently being audited by the Defense
Contract Audit Agency at our request. In addition, we performed limited work on the
Atacama Large Millimeter Array and the High Performance Instrumented Airborne
Platform for Environmental Research because these projects have not yet reached the
construction phase.

To meet the audit objectives, we queried NSF’s financial system to identify awards
receiving funding from the MRE account, reviewed obligation reports to determine if
these awards were receiving funds from other appropriations, and traced the NSF award
histories of the principal investigators on the awards to determine if they were obtaining
additional funding for the projects through other awards.

3
  The Gemini Observatory and the Laser Interferometer Gravitational Wave Observatory were the
first projects funded from the MRE account.
4
  OIG Report No. 01-2001, Audit of the Financial Management of the Gemini Project, December
15, 2000. In its response to the report, NSF management disagreed with this conclusion. NSF
contends that the excess costs were operational costs and therefore, were properly funded
through the RRA rather than the MRE appropriation account.

                                             4
We also held discussions with program managers and other NSF personnel responsible
for managing the major research equipment and facilities projects and implementing
NSF policies and procedures. We also reviewed current and past NSF policies related
to the account as well as Federal management and accounting requirements.

This audit was performed in accordance with generally accepted government auditing
standards from June 2001 through March 2002.




                                          5
                                    RESULTS OF AUDIT

Although the National Science Foundation (NSF) has worked diligently to provide state-
of-the-art major research equipment and facilities5 and has made a concerted effort to
improve its management and oversight of projects receiving funding from the Major
Research Equipment (MRE) appropriation account, NSF can improve its financial
management of these projects. NSF’s policies and practices have been changing over
time, but do not yet provide adequate guidance for program managers to oversee and
manage the financial aspects of major research equipment and facilities. These policies
have allowed NSF to use multiple appropriation accounts to fund the acquisition and
construction costs of major research equipment and facilities, and led to inconsistencies
in the type of costs funded through the MRE account. Additionally, NSF’s current
practice is to track only those costs funded from the MRE account and not the full cost of
the major research equipment and facilities. As a result, NSF cannot ensure that it stays
within its authorized funding limits or that it provides accurate and complete information
on the total costs of major research equipment and facilities to decision-makers for use
in evaluating performance.

Congress has also indicated its concern about NSF’s financial management of major
research equipment and facilities projects. In the fiscal year (FY) 2002 House
Appropriations Committee Conference Report6 (House Conference Report), Congress
specified the appropriation account that was to fund each phase of a project’s life cycle
and required a full life-cycle cost report for each major research equipment and facility
project.7

Given the high dollar, long term, and comprehensive nature of major research
equipment and facilities, NSF needs to ensure that its financial and management
policies, guidelines, and practices provide a total life-cycle focus to clearly and
consistently identify, record, track, and report the full costs of its major research
equipment and facilities, in accordance with the appropriate financial accounting
standards and guidance.


NSF’s Efforts to Improve the Financial Management and Oversight of Facilities
Projects

In response to the audit of the financial management of the Gemini Project,8
Congressional interest, and efforts by the Office of Management and Budget (OMB),
NSF has developed and begun to implement a Large Facility Projects Management and
Oversight Plan (the Plan). The Plan provides a strategy for improving the selection,

5
  For this report, major research equipment and facilities refer to those equipment and facilities
receiving at least partial funding from the MRE account.
6
  H.R. CONF. REP. NO. 107-272 (2001).
7
  This report requirement was also contained in the resulting Appropriation Act entitled: Making
appropriations for the Departments of Veterans Affairs and Housing and Urban Development, and
for sundry independent agencies, boards, commissions, corporations, and offices for the fiscal
year ending September 30, 2002, and for other purposes, Pub. L. No. 107-73 (2001).
8
  OIG Report No. 01-2001, Audit of the Financial Management of the Gemini Project, December
15, 2000.

                                                6
management, and oversight of large facility projects, including major research equipment
and facilities, and has four major goals:
   • To address organizational needs within NSF to effectively manage large facility
       projects by establishing a Business Oversight Team headed by a new Deputy
       Director for Large Facility Projects, and by using Project Advisory Teams
       composed of both business operations staff and scientific and technical staff to
       advise and assist project managers;
   • To implement guidelines and procedures for all aspects of facilities planning,
       management, and oversight, emphasizing post-award project oversight of
       construction and management;
   • To improve the process for reviewing and approving all large facility project
       proposals; and
   • To properly oversee facility projects to ensure their success by requiring a
       management plan for each proposal, developing a model template for post-
       award project review and by conducting regular oversight reviews.

NSF is currently recruiting for the Deputy Director for Large Facility Projects position.
This Deputy will serve as NSF’s principal agent for monitoring the business operations
aspects of large facility projects’ design, construction/acquisition, operation,
management, and oversight. Additionally, the Deputy, in partnership with NSF Program
Managers and Project Advisory Teams, will play a lead role in the development,
implementation, and continuous improvement of NSF management and oversight
policies, guidelines, and procedures for large facilities projects. NSF expects to
complete the strategy outlined in the Plan in FY 2002.


Funding and Tracking of Major Research Equipment and Facilities Costs

In addition to the Plan’s strategy to improve the management and oversight of major
research equipment and facilities, NSF will need to further develop and improve its own
financial management policies and practices to effectively manage, oversee, and report
the costs of its major research equipment and facilities. Specifically, to effectively
manage and oversee the funding and costs of major research equipment and facilities,
NSF needs to ensure it uses appropriation funds consistently and tracks the full life-cycle
costs of these facilities.9

Since the inception of the MRE account, NSF’s policies for using this account to fund the
costs of major research equipment and facilities have been inconsistent with the purpose
of the account. When NSF established the MRE appropriation account in fiscal year
1995, the stated purpose of the account was to fund the acquisition and construction of
major research equipment and facilities. However, NSF’s implementing policies and
procedures did not reflect this purpose. Rather, NSF’s initial MRE Guidelines,10 as well
as its 1997 revision to the Guidelines, stated that cost overruns would not be funded
from the MRE account. As a result, funds from other appropriations, such as the
Research and Related Activities (RRA) or the Education and Human Resources (EHR)

9
  According to the Capital Programming Guide, Supplement to A-11, Part 3, the full life cycle
costs include all costs for planning, procurement (purchase price and all other costs incurred to
bring it to a form and location suitable for its intended use), operations and maintenance.
10
   The initial MRE Guidelines were established in Staff Memorandum O/D 94-29 dated November
28, 1994.

                                                7
accounts, could be used to fund acquisition and construction costs of major research
equipment and facilities, when additional funding was needed.

In addition, MRE funds could be used to fund none, some, or all of a facility’s pre-
construction costs depending upon when a facility was approved for MRE funding. For
example, the initial version of the Guidelines allowed all costs to be funded from the
MRE account once a project received MRE status. However, the 2001 revision allowed
only approved research and development costs, in addition to the costs of construction.
Over time, these policies allowed and contributed to inconsistent funding practices.

At the same time, NSF’s accounting system did not, and currently does not, track all
costs incurred for its major research equipment and facilities. Instead, NSF generally
tracks only those costs funded from the MRE account. Costs funded from other
appropriations, such as the RRA or the EHR accounts, do not get charged or tracked to
the major research equipment or facility. As such, NSF’s total contribution to the major
equipment or facility is not easily known. To identify all costs requires a search of NSF’s
award and investigator history databases and interviews of NSF program personnel.
Even then, one cannot be sure of identifying all costs of a particular project.

The following cases demonstrate difficulties NSF faces in identifying the financial costs
of its major research equipment and facilities projects:

•    The Large Hadron Collider (LHC) is a major research equipment and facilities project
     for the construction of two high-energy particle detectors, A Toroidal Large Angle
     Spectrometer (ATLAS) and the Compact Muon Spectrometer (CMS). These
     detectors will be the major data collecting instruments at the LHC facility at the
     CERN laboratory in Switzerland. They are scheduled to become operational starting
     in 2006.

     Under a 1997 international agreement,11 the US Department of Energy and NSF
     agreed to participate in LHC activities, with NSF contributing financial support, not to
     exceed the National Science Board (NSB) authorized amount of $81 million over 10
     years, to the US ATLAS and CMS Collaborations. The agreement specified the
     support was for responsibilities described in the Experiments Protocol, and
     incorporated Memoranda of Understanding to be carried out during the construction
     of the ATLAS and CMS detectors. This included responsibilities for the development
     of the detectors’ offline computing and software systems. NSF is funding the entire
     $81 million through the MRE account, and is providing the funds through awards to
     two universities, under which each university leads a group of participating
     institutions.

     In order to meet its commitment under the 1997 agreement, the project will require
     additional funds. However, without sufficient MRE funds, NSF plans to cover the
     additional costs with RRA funds; it has already provided over $2 million in RRA funds
     for software development. Additionally, NSF is currently considering proposals for
     an additional $57 million for software development, detector installation and

11
  International Co-Operation Agreement between The European Organization for Nuclear
Research (CERN) and The Department of Energy of the United States of America and The
National Science Foundation of the United States of America concerning Scientific and Technical
Co-Operation on Large Hadron Collider Activities, December 8, 1997.

                                               8
      commissioning, computing infrastructure for researchers, and other pre-operational
      costs and is planning to fund these costs through the RRA account.

      Finally, NSF has been providing additional RRA funding directly to participating
      universities for “base program support,” as well as specific research and
      development costs in support of the LHC project. Since NSF’s accounting system
      tracks only the costs reflected in the MRE account as the total cost of the project,
      these additional RRA costs are not recognized as part of this project. NSF’s
      contribution to the LHC Construction will total at least $140 million; 73 percent
      greater than the $81 million currently funded by the MRE account.

•     In November 1998, the George E. Brown, Jr., Network for Earthquake Engineering
      Simulation (NEES) received NSB approval for $81.9 million to provide a national,
      networked collaboratory of geographically distributed, shared use, experimental
      research equipment sites, with teleobservation and teleoperation capabilities. NSF is
      funding these costs from the MRE account.

      However, in addition to the MRE funding, NSF also provided $1.1 million in co-
      funding from its Education and Human Resources (EHR) appropriation, through the
      Experimental Program to Stimulate Competitive Research (EPSCOR) Program.
      While the awardee was located in an EPSCOR designated state, and therefore, was
      properly eligible for EPSCOR funding, NSF provided these funds for the primary
      purpose of acquiring and constructing earthquake simulation equipment. Also,
      NSF’s financial management system accounted for the co-funding as part of the
      EPSCOR program and as a result, the system does not identify the co-funding as
      part of the total costs. Therefore, although the NSB approved NEES project is $81.9
      million and the accounting system will report this amount, the actual total cost of the
      project will be at least $83 million.

•     The Polar Support Aircraft Upgrades is a major research equipment and facilities
      project to upgrade and modify three NSF-owned aircraft to meet Air Force safety and
      operability standards.

      When the project began in FY 1998, NSF provided funding from the RRA account to
      fund engineering and other costs so it could begin the replacement and modification
      of major parts and systems of the three LC-130 aircraft. However, NSF’s accounting
      system did not track this funding and as a result, NSF has reported different amounts
      on the cost of this initial work. Documentation submitted to the National Science
      Board has reported $4.3 million in RRA funding,12 while budget documentation has
      reported only $4 million.13

      NSF also used two appropriations to fund this project, even though the nature of the
      work performed was the same for all three aircraft. In FY 1999 and 2000, the project
      received MRE funding totaling of $32 million to modify and upgrade the aircraft,
      including engineering, which NSF funded from the MRE account. Then, in FY 2002,
      the project obtained additional MRE funding of $885,000, for technical
      documentation and program management.


12
     Funding Status for Polar Support Aircraft Upgrades (NSB/CPP-01-10) dated May 15, 2001.
13
     NSF’s Justification of Estimates of Appropriations to Congress for fiscal years 1999 and 2000.

                                                  9
    NSF will also be using additional funding to complete the upgrade of the aircraft.
    The initial project included replacing the wings of one aircraft, which was funded
    through the MRE account. However, after the project had begun, the Air Force
    informed NSF that the other two aircraft also needed wing replacements. NSF is
    planning to use approximately $1 million of RRA funds to cover these modifications,
    although the tasks and purpose of replacing the wings of the three aircraft are the
    same.

•   The Atacama Large Millimeter Array (ALMA) is a major research equipment and
    facilities project for the world’s most sensitive, highest resolution, millimeter
    wavelength telescope. The project was planned to consist of forty 8-meter diameter
    radio telescopes. However, with the formation of a U.S.-European partnership, the
    planned facility has expanded to sixty-four 12-meter diameter antennas.

    Funding for ALMA has not been consistent with funding practices for other MRE-
    funded projects. Unlike the others, the initial approval for ALMA was not for
    construction work. Rather, NSF requested and received Congressional approval for
    MRE funding of the project’s design and development costs. From FY 1998 through
    FY 2001, this project received $32 million of MRE funds, solely for design and
    development.

As a result of these types of inconsistencies in NSF’s policies, guidelines, and practices
for funding and tracking costs of major research equipment and facilities, one cannot
examine the MRE account and determine the total construction costs of these projects
with any accuracy. Readily identifying the full cost that NSF’s different appropriations
paid for these projects is also difficult. Without consistent policies for charging specific
appropriations for major research equipment and facilities costs, or complete information
on the total costs of these projects, NSF has limited ability to manage the financial
aspects of its major research equipment and facilities.



Effects of Not Accounting for Total Costs of Major Research Equipment and
Facilities

When information on the costs of major research and facilities is not accurate or
complete, decision-makers may not have an adequate basis for their subsequent
judgments and actions. Decision-makers, including NSF management, NSB, Congress,
and OMB, need cost information for many purposes. For example, when budgeting,
cost information is important for estimating the total costs of projects and establishing
funding priorities. Once a project budget is set, actual cost information provides
feedback that decision-makers can use to control and reduce costs, as well as find and
avoid waste. Cost information is also an integral part of measuring performance as a
basis to evaluate continued funding of a project against other funding opportunities.

However, as indicated in the above examples, NSF has not always been consistent in its
practices for funding or tracking major research equipment and facilities costs. This
lack of consistency has resulted in obscuring the true cost of major research equipment
and facilities. Tracking only the acquisition and construction costs paid for with MRE
funds fails to recognize the costs of the project funded from other sources. It can also

                                            10
provide decision-makers with incomplete information regarding the amount of funds
needed to complete the acquisition and construction of major research equipment and
facilities, as well as the costs needed to operate and maintain the equipment and
facilities.

The consequences of these practices are that other educational and research-funding
opportunities are missed and could result in the nature of the activities supported by
each Directorate’s budget being distorted. In particular, the EHR and RRA appropriation
accounts are intended to improve education and human resource development, as well
as fund research activities that spur new knowledge, increase understanding, and offer
increased opportunities for economic growth. However, when funding for the acquisition
and construction of major research equipment and facilities comes from other
appropriations, NSF misses opportunities to fund awards in support of these other
appropriations’ goals. In addition, the nature of the activities supported by each
Directorate’s budget can become distorted when it is used to fund major acquisition and
construction, rather than its intended mission.


MRE Appropriation Account Funds Both Critical Assets and Research Tools

The MRE account provides funding for two distinctly different types of projects: those
that invest in state-of-the-art, scientific tools for research and development of new
knowledge and ideas; and those that support the investment in mission critical property,
plant and equipment (PP&E), owned by NSF, that provide the facilities and logistical
means for a broad range of science to take place, primarily in NSF’s Polar Programs.
Both of these types of projects require good project management (i.e., planning,
budgeting, construction, and risk management) to ensure that these multimillion-dollar
projects are on schedule, within budget, and perform as expected. Both types of
projects require total cost accounting in accordance with the Statement of Federal
Financial Accounting Standards (SFFAS) No. 4: Managerial Cost Accounting Standards.
But funding both of these types of projects from one appropriation account creates a
situation where the replacement, renovation, and upkeep of assets critical to the safety
and health of researchers could potentially compete for limited funding with new and
improved scientific tools. As such, NSF may want to consider prioritizing the mission
critical PP&E projects separately from the development and construction of research
tools, as well as differentiating their funding source, to avoid any possible negative
impact on the broad range of programs these assets support.


Financial Management Policies and Procedures Need To Be Improved

Although NSF has funded large science facilities in the past, in recent years, NSF’s
portfolio of facilities has grown and diversified to include distributed projects that
challenge traditional management and oversight approaches. Emerging multidisciplinary
science and engineering opportunities have also resulted in NSF moving towards
funding a greater number of large facilities projects that are increasingly complex, and
present challenging technical and management issues.




                                          11
However, to date, NSF has not fully developed the policies and procedures needed to
oversee and manage the financial aspects of major research equipment and facilities.14
The majority of NSF awards are relatively small; traditionally funding small, single-
investigator projects averaging approximately $100,000 over a limited period of time.
NSF’s financial management policies and procedures appear to be geared toward these
small awards rather than to the large facilities.

Currently, NSF’s policy for major research equipment and facilities projects is the
“Guidelines for Planning and Managing the Major Research Equipment Account.” These
Guidelines address only the MRE appropriation account, and not the full funding for the
major research equipment and facilities. Also, the Guidelines recommend only a single
financial review during the life of a project and do not provide any guidance on how to
perform that financial review. A single financial review of the project is insufficient to
ensure that costs incurred to date, as well as estimated future costs, are within the
funding types and levels authorized, and may preclude additional funding requests from
being considered in the annual budget cycle. The current MRE Guidelines also do not
address how NSF is to handle cost overruns. While earlier versions of the Guidelines15
stated that cost overruns should be funded through non-MRE accounts, the current
Guidelines are silent on the issue of handling potential and actual cost overruns and
provide no direction to NSF project managers.

Additionally, NSF’s policies and procedures do not require tracking NSF’s total
investment in the major research equipment and facilities. Federal accounting and
management guidance requires that the full cost of major research equipment and
facilities be tracked, from the planning stage through operations and maintenance.16 For
its major PP&E projects, NSF should include full costs, including operations, in its
financial reports in accordance with Federal accounting standards.17 For those major
research equipment and facilities tools funded by NSF, but held by colleges, universities
and other entities, NSF should report the full costs as a supplemental part of its financial
reporting.18 According to NSF financial personnel, NSF’s financial system has the
capability to identify and track the full costs of major research equipment and facilities.
Currently, however, NSF’s policies do not address accounting for the full cost of major
research equipment and facilities and, accordingly, has contributed to the current
practice of recognizing only costs funded by the MRE account as the costs of these
projects.

To address some of these issues, Congress indicated in its FY 2002 House Conference
Report,19 that NSF should make changes to the MRE account. First, as mentioned
earlier, Congress changed the name of the account to the Major Research Equipment

14
   In implementing its “Large Facility Projects Management and Oversight Plan,” NSF is currently
developing a new policy for its Proposal and Award Manual entitled, “Planning and Managing of
Large Infrastructure Projects.”
15
   “Criteria and Implementation Procedures for the Major Research Equipment (MRE) Account,”
dated November 28, 1994, and revision dated June 6, 1997.
16
   Appendix A describes the Accounting Standards and Management Guidelines that are
applicable to NSF’s accounting systems and practices.
17
   Statement of Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for Property,
Plant, and Equipment.”
18
   SFFAS No. 8, “Supplementary Stewardship Reporting,” (Chapter 7 – Research and
Development).
19
   H.R. CONF. REP. NO. 107-272 (2001).

                                              12
and Facilities Construction (MREFC) to better reflect the purpose, activities, and costs to
be funded with the appropriations made available through this account. In addition,
Congress clarified the use of funds from MREFC account and the RRA account by
indicating that the MREFC account is to provide resources for the acquisition,
construction, and commissioning of large scale research equipment and facilities and the
RRA account is to fund planning, design, operations, and maintenance costs.

This Congressional guidance not only defines how the appropriations should be used to
fund major research equipment and facilities, but also determines when projects will be
eligible to receive MREFC funding. Unless a specific exception is granted, MREFC
funding is limited to the costs of acquisition, construction, and commissioning, and can
no longer be used to fund planning and design costs as it has in the past. Finally, in
addition to defining the funding source, Congress also required that NSF submit a report
on the full life-cycle costs of projects funded through the MRE account.20 To comply with
these directives and improve its financial management, NSF will have to review, revise
and implement its financial management policies and procedures.


                         CONCLUSION & RECOMMENDATIONS

NSF established the Major Research Equipment appropriation account for FY 1995 to
fund the acquisition and construction of major research equipment and facilities that
provide unique capabilities at the cutting edge of science and engineering. The projects
supported by this account are expected to push the boundaries of technological design
and offer significant expansion of opportunities in totally new directions for the science
and engineering community. Due to their importance to NSF’s strategic goals and their
high cost, these projects require special management attention, from inception through
actual operation. However, to date the projects have been handled inconsistently in
terms of tracking costs and funding sources. As such, NSF needs to enhance its
financial management policies and practices to provide this higher level attention and
ensure NSF maintains its capabilities to effectively lead the scientific community.

Specifically, NSF needs to ensure that the management for major research equipment
and facilities is consistent with the directives in the FY 2002 appropriation by reviewing
and revising its policies and procedures to ensure adherence to the guidance.
Additionally, the costs to be funded from the MREFC and RRA appropriation accounts
need to be clearly defined. NSF needs to include an upfront process to ensure
consistent treatment of costs, such as software development, that are not always clearly
classifiable as construction (MREFC-funded) or research (RRA-funded). In addition,
NSF should enhance its guidance on financial management to include tracking and
assessing the full cost of major research equipment and facilities, to clarify the treatment
of cost overruns, and to provide instructions on performing a financial review.

NSF also needs to take advantage of the capabilities of its accounting system and
processes to identify, accumulate, and track the funding and total costs of the major
research equipment and facilities in accordance with the applicable accounting

20
   Making appropriations for the Departments of Veterans Affairs and Housing and Urban
Development, and for sundry independent agencies, boards, commissions, corporations, and
offices for the fiscal year ending September 30, 2002, and for other purposes, Pub. L. No. 107-73
(2001).

                                               13
standards and management guidance. To implement these changes, finance and
program personnel will have to work together to ensure costs are funded by the correct
appropriations account and charged to the appropriate research equipment and facilities
project. In addition, personnel who review agreements and awards must also ensure
compliance with the funding and costing policies.

Lastly, to accomplish this, NSF will have to ensure not only that the policies and
procedures are developed, but also that these changes are implemented. NSF will need
to provide training to its personnel in all organizations that take part in these projects
including the Directorates and Programs sponsoring the projects and the Office of
Budget, Finance and Award Management including the Divisions of Grants and
Agreements; Contracts, Policy and Oversight; and Financial Management.

We, therefore, recommend that the Chief Financial Officer of the National Science
Foundation, as part of the implementation of the Large Facility Projects Management
and Oversight Plan:

1. Continue to improve the NSF’s financial management and accounting policies and
   procedures to ensure that NSF manages and oversees the full cost of major
   research equipment and facilities. These improvements must ensure that NSF:
   • Identifies, records, and tracks the total costs of the major research equipment
      and facilities in accordance with Federal accounting and management guidance;
   • Uses good financial management practices to oversee its major research
      equipment and facilities and awardees, including tracking actual costs and
      conducting adequate financial reviews throughout the life of the project to ensure
      that actual costs and estimated future costs are within the funding types and
      levels authorized;
   • Incorporates procedures to specify how potential and actual cost overruns are to
      be handled and subsequent funding approved; and
   • Uses appropriation accounts in accordance with the Congressional guidance in
      the FY 2002 Appropriation regarding the use of funds from the Major Research
      Equipment and Facility Construction and Research and Related Activities
      appropriation accounts

2. Provide training on the updated policies and procedures to all NSF personnel
   involved with the funding and accounting for major research equipment and facilities
   including program management in the sponsoring Offices and Directorates and the
   Office of Budget, Finance and Award Management.


                                 AGENCY RESPONSE

To date, NSF has not formally responded to our draft report. We provided the agency
with an initial discussion draft, and corresponded and met with representatives from the
Office of Budget, Finance, and Award Management. Based upon those discussions, we
made several changes to our draft report. In an interim letter, NSF advised us that they
would respond officially to our report by June 15, 2002. We have included that letter, in
full, as Appendix B.




                                           14
Appendix A

                Audit of Funding for Major Research Equipment Projects

                  Accounting Standards and Management Guidelines



The Federal Government has established accounting standards and management
guidelines that are applicable to major research equipment and facilities. The standards
and guidance used as criteria for this report are listed below.


•   Statement of Federal Financial Accounting Standards No. 4: Managerial Cost
    Accounting Standards

•   Statement of Federal Financial Accounting Standards No. 6: Accounting for Property,
    Plant, and Equipment

•   Statement of Federal Financial Accounting Standards No. 8: Supplementary
    Stewardship Reporting

•   Statement of Federal Financial Accounting Standards No. 10: Accounting for Internal
    Use Software

•   Capital Programming Guide, Supplement to Office of Management and Budget
    Circular A-11, Part 3




                                           15
Appendix B
                Audit of Funding for Major Research Equipment Projects

                                 Interim Agency Response

                          NATIONAL SCIENCE FOUNDATION
                               ARLINGTON, VA 22230


Office of Budget, Finance
 & Award Management


MEMORANDUM

Date:           April 26, 2002

To:            Assistant Inspector General for Audit

From:          Chief Financial Officer

Subject:       Official Draft Report: Audit of Funding for Major Research Facilities
               Equipment and Facilities


Thank you for your draft report "Audit of Funding for Major Research Equipment and
Facilities." The Foundation fully agrees with the goal of strengthening NSF's financial
management of major research facilities. We all recognize that the next generation of
shared research instruments will be more complex and more difficult to develop, and we
will always seek -- as you recommend -- to improve our training of NSF personnel
responsible for overseeing those facilities.

NSF also strongly believes in continual improvement of our financial management
policies and practices, particularly with respect to MREFC projects. Based on previous
OIG recommendations, NSF has segregated new facility awards to fully and separately
account for the costs to be funded through from the MREFC account, as well as to fully
and separately account for the Operations, Maintenance and other costs supported
through the R&RA account. We have developed a Large Facilities Projects Management
and Oversight Plan. As part of that plan, I am in the process of hiring a new Deputy for
overseeing financial management of large facilities. And the Foundation has set up a
working group to develop guidelines and procedures devoted to the effective
management of NSF's major research facilities.

The leading-edge nature of each new major research facility presents unique challenges
that generalized policies and procedures do not always accommodate. Although
general guidelines and procedures are necessary, experienced and successful
managers of large multi-million or multi-billion dollar projects also know that challenges
always occur that are specific to the project's planning, location, design, and
construction. Because each MREFC project is truly a one-of-a-kind project, the
evolution of our MRE policies over the years has greatly benefitted from the lessons we
have learned while designing and constructing these new facilities. We know there is
more to do to refine our policies and procedures for fiscal management of large facilities,
but we also know that the Foundation has been particularly successful in bringing these
new facilities on-line. The value of these projects in advancing scientific knowledge and
inquiry, and their contributions to the economic welfare of this country, remains

                                            16
Appendix B
                Audit of Funding for Major Research Equipment Projects

                                Interim Agency Response

undisputed. Our goal is to continue to achieve similar success with the financial
management of these facilities, relying on reasonable management practices that will
instill a high level of confidence in our stewardship of taxpayer dollars.

Your draft audit report sets forth several recommendations, based in part on
characterizations that do not fully and accurately describe our processes or the specific
projects mentioned. We appreciate, of course, the draft nature of your report, and we
want to take the time necessary to respond with helpful information and to make sure
that we both fully understand the context and the policies in place at the time decisions
were made. In addition, we need to fully understand your specific concerns with the
Foundation's accounting system and how you believe our systems could be improved.
We will provide a detailed response to your draft report no later than June 15, and look
forward to further interactions and discussions with your Office. In the meantime, we will
continue to provide Congress with up-to-date information and a full accounting, of the
status and projected costs of all NSF major facilities.




                                            17
